               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00236-153


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

        James E. Van Zandt 

         VA Medical Center 

       Altoona, Pennsylvania 





May 13, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                       CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA



                                            Glossary 

                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VA         Veterans Administration
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                              CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              20

  F. Report Distribution .............................................................................................            21

  G. Endnotes ...........................................................................................................         22





VA OIG Office of Healthcare Inspections
                       CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of March 3, 2014, at the following
CBOCs which are under the oversight of the James E. Van Zandt VA Medical Center
and Veterans Integrated Service Network 4:

    Johnstown CBOC, Johnstown, PA

    State College CBOC, State College, PA

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review. However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

	    Fire drills are performed every 12 months at the Johnstown CBOC.

	    Medications are stored securely at the State College CBOC.

	    Ensure that women veterans are provided access to a gender-specific restroom at
      the Johnstown CBOC.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	    Registered Nurse Care Managers receive motivational interviewing training within
      12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	    Document completion of medication reconciliation for each episode of care where
      newly prescribed fluoroquinolone was administered, prescribed, or modified.

	    Provide written medication information that includes the fluoroquinolone.

	    Provide medication counseling/education that includes the fluoroquinolone.




VA OIG Office of Healthcare Inspections                                                       i
                       CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15−19, for the full text of the Directors’ comments.) We consider
recommendation 1 closed. We will follow up on the planned actions for the open
recommendations until they are completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                       ii
                           CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                           1
                          CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA


Table 1. CBOC/PCC Focused Reviews and Study Populations
      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the Johnstown and
State College CBOCs. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 2. EOC
 NM                   Areas Reviewed                                         Findings
         The CBOC’s location is clearly identifiable
         from the street as a VA CBOC.
         The CBOC has interior signage available
         that clearly identifies the route to and
         location of the clinic entrance.
         The CBOC is Americans with Disabilities Act
         accessible.
         The furnishings are clean and in good
         repair.
         The CBOC is clean.
         The CBOC maintains a written, current
         inventory of hazardous materials and waste
         that it uses, stores, or generates.
         An alarm system and/or panic buttons are
         installed and tested in high-risk areas (e.g.,
         MH clinic).
         Alcohol hand wash or soap dispenser and
         sink are available in the examination rooms.
         Sharps containers are secured.
         Safety needle devices are available.
         The CBOC has a separate storage room for
         storing medical (infectious) waste.
  X      The CBOC conducts fire drills at least every     There was no evidence of fire drills occurring at
         12 months.                                       least every 12 months at the Johnstown CBOC.
         Means of egress from the building are
         unobstructed.
         Access to fire alarm pull stations is
         unobstructed.
         Access to fire extinguishers is unobstructed.
         The CBOC has signs identifying the
         locations of fire extinguishers.
         Exit signs are visible from any direction.
         No expired medications were noted during
         the onsite visit.



VA OIG Office of Healthcare Inspections                                                                       3
                                CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA


 NM            Areas Reviewed (continued)                                    Findings
  X      All medications are secured from                 All medications were not secured from
         unauthorized access.                             unauthorized access at the State College
                                                          CBOC. We found one opened and two
                                                          unopened boxes of single dose shingle vaccine
                                                          vials, which were stored in an unlocked portable
                                                          refrigerator in an exam room where the shingles
                                                          clinic was conducted.
         Personally identifiable information is
         protected on laboratory specimens during
         transport so that patient privacy is
         maintained.
         Adequate privacy is provided to patients in
         examination rooms.
         Documents containing patient-identifiable
         information are not laying around, visible, or
         unsecured.
         Window coverings provide privacy.
         The CBOC has a designated examination
         room for women veterans.
  X      Adequate privacy is provided to women            Gowned women veterans at the Johnstown
         veterans in the examination room.                CBOC cannot access gender-specific restrooms
                                                          without entering public areas.
         The Information Technology network
         room/server closet is locked.
         All computer screens are locked when not in
         use.
         Staff use privacy screens on monitors to
         prevent unauthorized viewing in high-traffic
         areas.
         EOC rounds are conducted semi-annually
         (at least twice in a 12-month period) and
         deficiencies are reported to and tracked by
         the EOC Committee until resolution.
         The CBOC has an Automated External
         Defibrillator.
         Safety inspections are performed on the
         CBOC medical equipment in accordance
         with Joint Commission standards.
         The parent facility includes the CBOC in
         required education, training, planning, and
         participation leading up to the annual
         disaster exercise.
         The parent facility’s Emergency
         Management Committee evaluates CBOC
         emergency preparedness activities,
         participation in annual disaster exercise, and
         staff training/education relating to
         emergency preparedness requirements.



VA OIG Office of Healthcare Inspections                                                                      4
                                CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA




Recommendations

1.   We recommended that fire drills are performed every 12 months at the Johnstown CBOC.

2. We recommended that medications are secured and only accessible by those individuals
who either dispense or administer medications at the State College CBOC and that compliance
is monitored.

3. We recommended that processes are strengthened to ensure women veterans can access
gender-specific restrooms without entering public areas at the Johnstown CBOC.




VA OIG Office of Healthcare Inspections                                                                5
                                CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The area marked
as NM did not meet applicable requirements and needed improvement.

Table 3. AUD
 NM                   Areas Reviewed                                          Findings
        Alcohol use screenings are completed during
        new patient encounters, and at least
        annually.
        Diagnostic assessments are completed for
        patients with a positive alcohol screen.
        Education and counseling about drinking
        levels and adverse consequences of heavy
        drinking are provided for patients with
        positive alcohol screens and drinking levels
        above National Institute on Alcohol Abuse
        and Alcoholism guidelines.
        Documentation reflects the offer of further
        treatment for patients diagnosed with alcohol
        dependence.
        For patients with AUD who decline referral to
        specialty care, CBOC/PCC staff monitored
        them and their alcohol use.
        Counseling, education, and brief treatments
        for AUD are provided within 2 weeks of
        positive screening.
  X     CBOC/PCC RN Care Managers have                    We found that 6 of 23 RN Care Managers did
        received Motivational Interview training within   not receive Motivational Interview training within
        12 months of appointment to PACT.                 12 months of appointment to PACT.
        CBOC/PCC RN Care Managers have
        received VHA National Center for Health
        Promotion and Disease Prevention-approved
        health coaching training (most likely TEACH
        for Success) within 12 months of
        appointment to PACT.
        The facility complied with any additional
        elements required by VHA or local policy.

Recommendation

4. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
receive motivational interviewing training within 12 months of appointment to Patient Aligned
Care Teams.



VA OIG Office of Healthcare Inspections                                                                        6
                                CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones
 NM                   Areas Reviewed                                       Findings
  X     Clinicians documented the medication            We did not find documentation that medication
        reconciliation process that included the        reconciliation included the newly prescribed
        fluoroquinolone.                                fluoroquinolone in 8 (20 percent) of 40 patient
                                                        EHRs.
  X     Written information on the patient’s            We did not find documentation that 9 (23
        prescribed medications was provided at the      percent) of 40 patients received written
        end of the outpatient encounter.                information that included the fluoroquinolone.
  X     Medication counseling/education for the         We did not find documentation of medication
        fluoroquinolone was documented in the           counseling that included the fluoroquinolone in 7
        patients’ EHRs.                                 (18 percent) of 40 patients’ EHRs.
        Clinicians documented the evaluation of each
        patient’s level of understanding for the
        education provided.
        The facility complied with local policy.

Recommendations

5. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

6. We recommended that staff consistently provide written medication information that
includes the fluoroquinolone.

7. We recommended that staff provide medication counseling/education that includes the
fluoroquinolone.




VA OIG Office of Healthcare Inspections                                                                     7
                                CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency
 NM                   Areas Reviewed                                       Findings
        CBOC and PCC DWHPs maintained
        proficiency requirements.
        CBOC and PCC DWHPs were designated
        with the WH indicator in the Primary Care
        Management Module.




VA OIG Office of Healthcare Inspections                                                                8
                                                                     CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA
                                                                                                                                  Appendix A


                                                                    CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                     Uniquesd                                  Encountersd

                                Station                   CBOC
        Location      State                 Localitye                  MHg        PCh       Otheri      All       MHg         PCh      Otheri       All
                                   #                       Sizef
    Johnstown          PA       503GA        Urban       Mid-Size      719       3,992      3,438      4,895      4,813      9,125     13,265     27,203
    State College      PA       503GC        Urban       Mid-Size      343       3,872      2,519      4,071      1,849      7,940      8,025     17,814
    DuBois             PA       503GB        Rural       Mid-Size      252       3,848      2,253      4,048      1,080     10,017      8,816     19,913




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                    9
                          CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                                                                                 Tele-Health
             CBOC             Specialty Care Servicesk           Ancillary Servicesl
                                                                                                  Servicesm
    Johnstown                       Optometry                       Audiology                 Tele Primary Care
                              Women's Cancer Care                   Laboratory
                                     Podiatry                  Electrocardiography
                              Anti-Coagulation Clinic              Social Work
                                                            Diabetic Retinal Screening
                                                                     Nutrition
    State College                   Optometry                       Audiology                 Tele Primary Care
                                     Podiatry                       Laboratory
                              Anti-Coagulation Clinic          Electrocardiography
                                                            Diabetic Retinal Screening
    DuBois                           Podiatry                       Laboratory                Tele Primary Care
                                    Optometry                  Electrocardiography
                              Anti-Coagulation Clinic               Audiology
                                                            Diabetic Retinal Screening
                                                                  Diabetes Care
 




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/)
 

VA OIG Office of Healthcare Inspections                                                                           10
                                                                    CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA
                                                                                                                                 Appendix B


                                                         PACT Compass Metrics





                                                                                                                                                            
Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.

VA OIG Office of Healthcare Inspections                                                                                                               11
                                                                      CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.



VA OIG Office of Healthcare Inspections                                                                                                                    12
                                                                     CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.


VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                                     CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.



VA OIG Office of Healthcare Inspections                                                                                                                  14
                       CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA
                                                                                    Appendix C
                              VISN Director Comments




VA OIG Office of Healthcare Inspections                                                      15
                       CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA
                                                                                    Appendix D
                            Facility Director Comments




VA OIG Office of Healthcare Inspections                                                      16
                       CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA


                               Comments to OIG’s Report

OIG Recommendations

Recommendation 1. We recommended that fire drills are performed every 12 months
at the Johnstown CBOC.

Concur

Target date for completion: March 27, 2014

Facility response: Staff were re-educated on the requirements to conduct and track fire
drills. Fire drills were conducted in Johnstown on April 4, 2013 and February 27, 2014.
The most recent drill was reported to the Environment of Care Committee on March 27,
2014. An additional drill will be scheduled after CBOC relocates to the new building on
April 29, 2014 and then annually thereafter. The Safety Office created a spreadsheet to
track fire drills to assure annual compliance. The Environment of Care Committee will
be tracking and monitoring fire drills. Future fire drills will be conducted at CBOCs as
required.

Recommendation 2. We recommended that medications are secured, and only
accessible by those individuals who either dispense or administer medications at the
State College CBOC and that compliance is monitored.

Concur

Target date for completion: July 31, 2014

Facility response: On the date of the survey, the medications were immediately returned
to the Medication Room at the State College CBOC. All medications will be maintained
in the locked Medication Room until it is time to administer the medication. The Nurse
Manager, CBOCs, will conduct random checks to ensure that medications are secured
and report data monthly to the Associate Director for Patient/Nursing Services. This
item will be monitored until three (3) consecutive months of 100% compliance are
achieved.

Recommendation 3. We recommended that processes are strengthened to ensure
women veterans can access gender-specific restrooms without entering public areas at
the Johnstown CBOC.

Concur

Target date for completion: April 29, 2014

Facility response: The Johnstown CBOC is moving to a new and expanded location on
April 29, 2014 which includes private access to gender-specific restrooms without
entering public areas at the Johnstown CBOC.


VA OIG Office of Healthcare Inspections                                                      17
                       CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA


Recommendation 4. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing training within 12 months of
appointment to Patient Aligned Care Teams.

Concur

Target date for completion: July 31, 2014

Facility response: All Patient Aligned Care Team (PACT) RN Care Managers will have
Motivational Interviewing & Health Coaching training completed by April 30, 2014. The
HPDP Coordinator will maintain a current list of their specific PACT RN Care Managers
and dates of PACT, Motivational Interviewing & Health Coaching Training to ensure that
the training is completed within the 12 months of appointment to PACT. The Chief,
Education Service, will review the tracking spreadsheet on a monthly basis to ensure
that staff who need the training have received the training and report data monthly to
the Associate Director for Patient/Nursing Services. The HPDP Coordinator will
document this requirement in the monthly HPDP Committee minutes. This item will be
monitored until three (3) consecutive months of 100% compliance are achieved.

Recommendation 5.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: September 1, 2014

Facility response: Chief, Primary Care and Clinical Applications Coordinator developed
and implemented both a Medication Reconciliation reminder and medication
reconciliation short keys for documentation purposes for the practitioners use in
documenting each episode of care where a newly prescribed prescription was
administered, prescribed, or modified. The medication reminder was implemented. The
new process will be monitored by pulling 70 charts monthly and determining compliance
by the Administrative Officer in Primary Care with a benchmark completion rate of 90%.
This process will be monitored monthly until at least 3 months of compliance, and
reported to Med Use and Nutrition Committee then to CMC.

Recommendation 6.         We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target date for completion: September 30, 2014

Facility response: A Medication Use Evaluation (MUE) for each fluoroquinolone is being
developed between Chief, Primary Care Service; Chief, Pharmacy Service, and the
Clinical Applications Coordinator to remind staff when ordering a fluoroquinolone that



VA OIG Office of Healthcare Inspections                                                      18
                       CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA


written medication information needs to be discussed, need to educate and counsel
patient or significant other, and document that this information was provided.

After the MUE is developed and implemented, a list of fluoroquinolones by patient will
be run by pharmacy. Chief, Pharmacy Service and Administrative Officer in Primary
Care Service will monitor the process and report to Medication Use and Nutrition
Committee then to CMC monthly with a benchmark compliance rate of 90%.

Recommendation 7.             We recommended that                staff   provide    medication
counseling/education that includes the fluoroquinolone.

Concur

Target date for completion: September 30, 2014

Facility response: A Medication Use Evaluation (MUE) for each fluoroquinolone is being
developed between Chief, Primary Care Service; Chief, Pharmacy Service, and the
Clinical Applications Coordinator to remind staff when ordering a fluoroquinolone that
written medication information needs to be discussed, need to educate and counsel
patient or significant other, and document that this information was provided.

After the MUE is developed and implemented, a list of fluoroquinolones by patient will
be run by pharmacy. Chief, Pharmacy Service and Administrative Officer in Primary
Care Service will monitor the process and report to Medication Use and Nutrition
Committee then to CMC monthly with a benchmark compliance rate of 90%.




VA OIG Office of Healthcare Inspections                                                      19
                       CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Lisa Barnes, MSW, Team Leader
Contributors            Myra Conway, RN, MS
Other                   Bruce Barnes
Contributors            Lin Clegg, PhD
                        Donna Giroux, RN
                        Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Natalie Sadow, MBA
                        Patrick Smith, M. Stat
                        Randall Snow, JD
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      20
                       CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Acting Director, VA Healthcare (10N4)
Director, James E. Van Zandt VA Medical Center (503/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Robert P. Casey Jr., Patrick J. Toomey
U.S. House of Representatives: Keith Rothfus, Bill Shuster, Glen W. Thompson


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      21
                           CBOC and PCC Reviews at James E. Van Zandt VA Medical Center, Altoona, PA
                                                                                        Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    22
